<html>
<title> - MISSION POSSIBLE: FEMA'S FUTURE PREPAREDNESS PLANNING</title>
<body><pre>[Senate Hearing 110-823]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-823

         MISSION POSSIBLE: FEMA'S FUTURE PREPAREDNESS PLANNING

=======================================================================

                                HEARING

                               before the

                  AD HOC SUBCOMMITTEE ON STATE, LOCAL,
                    AND PRIVATE SECTOR PREPAREDNESS
                            AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
45-991                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN E. SUNUNU, New Hampshire
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN WARNER, Virginia

                     Kristin Sharp, Staff Director
                Michael McBride, Minority Staff Director
                       Kelsey Stroud, Chief Clerk

















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1

                               WITNESSES
                     Wednesday, September 24, 2008

Marko Bourne, Director of Policy and Program Analysis, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security.......................................................     2
Nancy J. Dragani, President, National Emergency Management 
  Association, and Executive Director, Ohio Emergency Management 
  Agency, Ohio Department of Public Safety.......................     5
Larry Gispert, President, International Association of Emergency 
  Managers, and Director of Emergency Management, Hillsborough 
  County, Florida................................................     7
Jane Bullock, Principal, Bullock and Haddow, LLC, and Former 
  Chief of Staff, Federal Emergency Management Agency, and Member 
  of the Adjunct Faculty, Center of Crisis, Disaster, and Risk 
  Management, George Washington University.......................     9

                     Alphabetical List of Witnesses

Bourne, Marko:
    Testimony....................................................     2
    Prepared statement...........................................    31
Bullock, Jane:
    Testimony....................................................     9
    Prepared statement...........................................    50
Dragani, Nancy J.:
    Testimony....................................................     5
    Prepared statement...........................................    38
Gispert, Larry:
    Testimony....................................................     7
    Prepared statement...........................................    43

                                APPENDIX

Questions and responses submitted for the Record from:
    Mr. Bourne...................................................    56
    Ms. Dragani..................................................    70
    Mr. Gispert..................................................    74
    Ms. Bullock..................................................    75

 
         MISSION POSSIBLE: FEMA'S FUTURE PREPAREDNESS PLANNING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2008

                                   U.S. Senate,    
               Ad Hoc Subcommittee on State, Local, and    
             Private Sector Preparedness and Integration,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I will go ahead and call us to order. Thank 
you, everyone, for being here, and certainly the staff and the 
Members who are coming. I appreciate the work that got us here 
today.
    I want to welcome our panelists and our other guests to the 
Subcommittee today to hear about FEMA's future preparedness 
efforts. I appreciate you all taking time to be here today.
    The purpose of this hearing is to assess FEMA's 
preparedness and continuity of operations over the next 12 to 
18 months. As we all know, the next year-and-a-half will see 
changes in leadership in all the Federal agencies. Many of our 
State and local partners will also undergo changes in their 
leadership levels. My goal in holding this hearing is to assess 
our ability to respond to a catastrophic incident during this 
time of transition--not just for the Presidential race, but for 
the next year or year-and-a-half of transition as people get 
acclimated and get a new Administration up and running. We need 
to make sure that nothing falls through the cracks.
    I always feel like the period of transition is critical. 
For example, here in Washington, we are seeing the winding down 
of one Administration, and whether it is a Democrat or a 
Republican who wins in November, we will see a new 
Administration with a lot of new people, and a lot of times in 
that time of flux and transition, it can be a vulnerable time 
for our people.
    We are in the process of tying up loose ends. I know FEMA 
has a lot of loose ends that need to be tied up--staffing up 
agencies, defining roles and responsibilities, and evaluating 
our capacity. History indicates that terrorists try to 
capitalize on moments where there seem to be instability or 
uncertainty, and if this hurricane season is any indication, we 
cannot count on Mother Nature to cut us any slack, either.
    It is my hope that this hearing will shed some light on our 
Nation's emergency management and response capabilities and 
also identify areas where we can strengthen that. Some of my 
concerns include ongoing policy initiatives, like the 
establishment of a target capabilities list and an inventory of 
Federal response capabilities. I am also interested in planning 
efforts to wrap up or hand off projects like the National 
Disaster Housing Strategy, National Response Framework, 
pandemic flu preparedness, and the continuing flooding and 
hurricane recovery efforts. It is critical that we focus on 
gaps in preparedness and response capabilities now rather than 
later.
    In my experience, homeland security and emergency 
management issues have crossed the partisan divide, which I 
think is a good thing and I hope that they continue to do that. 
This Administration and previous Administrations offer valuable 
emergency response and planning experience and our State, 
local, and private sector partners must also be brought to the 
table as we identify the best practices in remaining prepared 
over the next 12 to 18 months.
    Again, I appreciate everyone's time and attention to this 
issue and thanks again for being here. Now what I would like to 
do is introduce our panel.
    Mr. Bourne, I will let you go first. Marko Bourne is the 
Director of Policy and Program Analysis at FEMA. I appreciate 
you testifying before this Subcommittee again. I think he held 
the distinction of being on our Subcommittee's first panel and 
now on our last panel before the end of this Congress. So Mr. 
Bourne, go ahead.

 TESTIMONY OF MARKO BOURNE,\1\ DIRECTOR OF POLICY AND PROGRAM 
ANALYSIS, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Bourne. Thank you, Mr. Chairman. It is once again a 
pleasure to be here before the Subcommittee. I have certainly 
enjoyed the times that we have been able to chat in the past.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bourne appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    As you said, my name is Marko Bourne and I am the Director 
of Policy and Program Analysis at FEMA in the Department of 
Homeland Security and I am pleased to be here for a number of 
reasons. This Subcommittee has been a tremendous supporter of 
FEMA and its development and operational readiness over the 
last several years and it has been my task, among my 
responsibilities in managing the policy, strategic planning, 
and transformation process to also have overseen many of the 
specific developments following PKEMRA and the merger of the 
Preparedness Directorate into FEMA and many of the 
reorganization efforts that we have been undertaking along the 
way.
    The current operational tempo we are in right now certainly 
lends itself as a perfect backdrop to the discussion that we 
are here to have today and I would like to use that as a way of 
highlighting the progress that we have made to date and the 
challenges that remain.
    When, in 2006, Administrator Paulison actually announced 
his vision for what became known as New FEMA, the major goal 
was to regain the trust and confidence of the American people 
by transforming FEMA back into the Nation's preeminent 
emergency management and preparedness agency, and part of that 
challenge was to release this past spring FEMA's strategic 
plan, which is not just for this year, it is not for next year, 
it is designed to be a strategic plan to build for the next 5 
years, and it had significant goals in the plan.
    Those goals include strengthening our core capabilities and 
competencies and our capacity to build on the National 
Emergency Management System, not just on FEMA's Emergency 
Management System.
    Our second goal was to build strong regions. The idea that 
the region is the essential field echelon of FEMA. It is the 
direct day-to-day connection with our State and local partners, 
and we are undertaking efforts which I will talk a little bit 
more in detail in a moment. Strengthening our partnership with 
the States, which involves more than just providing disaster 
assistance after the fact, but to plan, train, and exercise in 
advance.
    Professionalize the emergency management system by 
providing additional training opportunities, supporting EMI and 
the other training institutions that are now part of FEMA, and 
to build on an effective planning effort that is not only 
synchronized at the Federal level, but also synchronize through 
our regions with our State and local partners, and we have made 
a significant amount of progress in building not only that 
partnership, which is an ongoing development, as well as FEMA's 
own internal capacity to deal with these events.
    We had to focus in many respects on expanding our internal 
capabilities and strengthening our organization. Part of the 
challenges that we faced in the post-Katrina environment 
included the ability to better coordinate with State and 
Federal agencies, and with Federal agencies, we developed over 
200 Pre-Scripted Mission Assignments that help us in advance of 
disasters facilitate the actions of other Federal agencies. 
Prior to this year, there were less than 30 of those and we 
have now 223 with 31 different Federal agencies.
    On the ground, with the support of the Congress and this 
Subcommittee, we developed Incident Management Assistance 
Teams. There are two National Incident Management Assistance 
Teams and three regional ones and more will be coming on board 
in the next year. They are our ground troops. They are the 
folks that go out there that have extensive experience in 
emergency management and disaster response. They provide 
situational awareness. And they make that early linkage with 
our State partners and ultimately with our local partners in 
areas that are most affected.
    Our Logistics Management Directorate, which used to be 
buried about three tiers down in the Operations Directorate, is 
now a stand-alone and we have revamped the way FEMA looks at 
logistics and we learn lessons every day about how to better 
track resources, provide those resources to the State, and when 
called upon, deliver those resources to the American public.
    FEMA now has over 60 Mobile Disaster Registration Centers 
where we can actually roll into areas that do not have power, 
do not have life support. The ability for folks to apply not 
just by phone but to apply online, and current activity with 
regards to applications for disaster assistance in the wake of 
Hurricane Ike, over 71 percent of those disaster applications 
have come online now as opposed to calling the 1-800 number, 
which allows for a tremendous increase in our capacity to 
register victims for disaster help.
    We have looked at robust systems for evacuation planning. 
We learned from Hurricane Katrina that there are those that 
cannot evacuate themselves. State and local governments have 
taken great pains to begin to look at how they can support the 
evacuation of their local population. But what we have done on 
the Gulf Coast was to look and work with them to develop a 
comprehensive evacuation plan that involves also Federal 
support to that when called upon by the State. It is not 
something that is put together on the fly, but is determined in 
advance how many people need to be there, what kind of movement 
needs to happen, and what are the mechanisms to move people to.
    All of that is part of our preparedness culture and our 
planning culture, which is slowly growing. We are in the 
process now of vetting with State and local governments the new 
Integrated Planning System, and the idea behind IPS is to find 
a way to not only synchronize Federal planning, but how does 
that translate to State and local planning. And the IPS 
document along with the Comprehensive Preparedness Guide 101 
has been vetted with the States and is in its final review 
period now before publishing.
    We have strengthened our regions. We are almost doubling 
the size of our regions both this year and next year, and all 
of that planning is in place to provide them not only with more 
training folks, but planning folks as well as emergency 
response.
    Hurricanes Gustav and Ike allowed us an opportunity to 
essentially dry run many of these activities. They have allowed 
us to determine where there are strengths and weaknesses in our 
current planning process and how we can improve coordination 
between all levels of the State, local, and Federal Government. 
I think it is fair to say that in any disaster, the plan is the 
first thing that needs to be changed because no disaster 
respects a plan on paper, and we have tried to be extremely 
versatile in addressing those challenges as they have come up.
    We do have a long way to go to continue the rest of the 
planning that we are doing this year, to finish hiring all of 
the staff that we have in the queue. There are over 500 that 
are going to be hired and on board within the next 30 days, 
which will get us to the 95 percent goal that we set for this 
year. And we have asked in 2009 for additional support and 
staff and we look forward to the budget and the appropriations 
bill so that we can begin to embark on hiring those folks, as 
well.
    I thank you and the Subcommittee for your continued 
support. I will end my remarks here by saying that we continue 
to build on the foundation. We are building an organization 
that has the opportunity to move forward aggressively with the 
support of our State and local partners and we will continue to 
support the American people in their ability to respond, 
recover, and mitigate against future disasters. I will be happy 
to take any questions you might have.
    Senator Pryor. Thank you. I will save my questions until we 
have the whole panel testify, but thank you very much.
    Nancy Dragani is the President of the National Emergency 
Management Association. She is also Executive Director of the 
Ohio Emergency Management Agency. Please go ahead, Ms. Dragani.

 TESTIMONY OF NANCY DRAGANI,\1\ PRESIDENT, NATIONAL EMERGENCY 
MANAGEMENT ASSOCIATION, AND EXECUTIVE DIRECTOR, OHIO EMERGENCY 
      MANAGEMENT AGENCY, OHIO DEPARTMENT OF PUBLIC SAFETY

    Ms. Dragani. Thank you, Chairman Pryor, and thank you for 
the invitation to come here and say a few remarks about FEMA's 
preparedness. FEMA's readiness as we look at the transition in 
2009 is a critical issue that Congress and the next 
Administration must explore and explore carefully.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Dragani appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    As you well know, in the past 5 years, FEMA has weathered 
two significant reorganizations. First, FEMA was reorganized 
into the Department of Homeland Security in the years following 
September 11, 2001. FEMA was reorganized again through the 
Post-Katrina Emergency Management Reform Act in 2005 after 
Hurricane Katrina, which brought back into FEMA some very 
critical functions and allowed it to provide a more robust and 
stronger support to its State and local partners.
    In March 2008, NEMA's members drafted a white paper that 
outlined recommendations for an effective emergency management 
system. There were several top emergency management issues that 
were identified. The first was a focus on all-hazards emergency 
preparedness. We have seen the pendulum shift from a focus on 
natural hazards, then post-September 11, 2001, to almost 
exclusively terrorism, back to catastrophic natural hazards 
post-Katrina. We need to balance that focus and recognize that 
if we are prepared for all hazards, then we will be able to 
respond whether it is a pandemic or a hurricane or a tornado in 
the Midwest.
    Emergency management must be owned and supported by elected 
officials at all levels of government as a critical government 
service. This isn't just FEMA's job. It isn't just the States' 
job. It is local government, as well, and we must work together 
and be adequately resourced to perform our mission.
    The Nation requires an emergency management system which 
recognizes the integration of local, State, Tribal, regional, 
and Federal organizations so that when we need a single 
management structure following a catastrophic event, that 
structure is understood and in place.
    And finally, our citizens and businesses must understand 
and act on their personal responsibilities, and we have to 
develop a culture where everyone understands that, ultimately, 
response happens in the home. The first responder is mom and 
dad taking care of themselves and their families.
    I want to talk just a little bit about a revelation that I 
had a couple weeks ago when I was in Portland at our National 
Emergency Management Association conference. Several of our 
members were not there because they were focused on Hurricanes 
Gustav and Ike. I realized then it was very apparent that we no 
longer have single-State disasters. We have disasters that 
involve multiple States and require a national response.
    One of the ways that we effectively do that is through the 
Emergency Management Assistance Compact. That compact has 
proved its value over and over again since Hurricane Katrina 
and it really requires at this point the establishment of a 
permanent funding authorization so that the compact can be 
maintained and the intent can be improved.
    FEMA regions, and I will echo something that Marko said, I 
certainly support the development of FEMA regions and FEMA 
regional coordination capabilities. They are more important now 
than ever before. The regions need to be fully staffed. They 
need to have stockpiles, resources pre-positioned, and continue 
the development of those regional assets.
    And finally, Emergency Management Performance Grants. We 
talk about EMPG often because it is the single Federal all-
hazards emergency preparedness program that supports the 
building of capability at the State and local level. It must be 
maintained as a separate all-hazards program with adequate 
funding and flexibility to address the specific needs of States 
and local governments.
    While Ohio is not prone to hurricanes, thank goodness, and 
we are not very prone to earthquakes, we are prone to 
devastating floods, both flash and riverine, tornadoes, and 
winter storms. Over the past several years, we have been 
fortunate in having a longstanding and very productive and 
positive relationship with our Federal partners, particularly 
FEMA Region V and Ed Buikema and his staff. We have an equally 
strong and supportive relationship with our 88 county Emergency 
Management Directors that represent our local partners. This 
relationship both up and down is critical as we build effective 
national emergency management systems, and it requires trust 
and confidence in all your partners, whether they are Federal, 
State, or local partners.
    That partnership was again evident last summer when we had 
devastating floods in Central Ohio and just last week when we 
had nearly two million customers without power for days on end.
    We do have a few recommendations for FEMA, DHS, and the 
Administration. The first is that the FEMA Administrator must 
continue to serve as a primary advisor to the President on 
emergency management issues, and FEMA as an organization must 
be adequately staffed and given the authority to provide both 
the resources federally, but the resources to its State and 
local partners, as well.
    Second, State, local, and private stakeholders should be 
involved in the full lifecycle of any strategy, policy, or plan 
development related to national preparedness efforts because 
ultimately, if it is national, it brings in State and local 
partners. And I do want to applaud FEMA for the efforts they 
have done to date in the last several months to bring us in 
early as policies are being developed rather than waiting until 
after the fact.
    Finally, the Federal interagency preparedness activities 
must be coordinated at the Federal level prior to 
implementation. The effort that FEMA is undertaking through the 
Integrated Planning System to coordinate Federal planning 
activities is critical and prevents both duplication and 
confusion at the Federal level that translates down to local 
relationships.
    With that, I want to thank you again for allowing me to 
come and share a few thoughts with you and I will be happy to 
answer any questions when we are done. Thank you.
    Senator Pryor. Thank you.
    Larry Gispert is the President of the International 
Association of Emergency Managers. He is also Director of 
Emergency Management for Hillsborough County, Florida, which I 
understand that you have about 1.5 million people?
    Mr. Gispert. One-point-two, but who is quibbling.
    Senator Pryor. One-point-two, and growing?
    Mr. Gispert. Yes, sir.
    Senator Pryor. Go ahead. Thank you.

    TESTIMONY OF LARRY GISPERT,\1\ PRESIDENT, INTERNATIONAL 
 ASSOCIATION OF EMERGENCY MANAGERS, AND DIRECTOR OF EMERGENCY 
            MANAGEMENT, HILLSBOROUGH COUNTY, FLORIDA

    Mr. Gispert. Good afternoon, Chairman Pryor. Thank you for 
allowing me to present testimony on this critically important 
topic. I am Larry Gispert. I am the Director of Emergency 
Management for Hillsborough County, Florida. Hillsborough 
County, including the major city of Tampa, is on the West Coast 
of Florida. The county's population is approximately 1.2 
million. I currently serve as the President of the 
International Association of Emergency Managers (IAEM), and am 
testifying on their behalf today. I have 28 years' experience 
in emergency management with the last 15 years as the 
Hillsborough County Director. I have also served as the 
President of the Florida Emergency Preparedness Association.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gispert appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    IAEM has over 4,000 members, including emergency management 
professionals at the State and local government level, Tribal 
Nations, the military, colleges and universities, private and 
nonprofit sectors, and members in 58 other countries. Most of 
our members are U.S. city and county emergency managers. We 
believe that the high potential for disasters and crises in our 
country demand that we maintain an effective national system of 
emergency management. This national system needs to consist of 
strong partners at the Federal, State, and local levels. Yet it 
is our belief that this mission is most easily realized through 
making FEMA once again an independent agency reporting directly 
to the President. In the absence of this structural change, we 
believe success is not impossible, but will certainly require 
more effort coupled with a very vigilant Congress.
    After Hurricane Katrina, IAEM endorsed a number of critical 
elements for achieving a strong FEMA. They are: Maximum amount 
of access of the FEMA Director to the White House; FEMA clearly 
responsible for coordination of the Federal response to 
disasters; adequate funding, resources, and personnel for FEMA; 
experienced, qualified, and knowledgeable leadership in all key 
FEMA positions; the Principal Federal Official position 
abolished; FEMA regions strengthened; inclusion of local 
emergency managers in policy development; insist on an all-
hazards approach to emergency management; and the entire 
preparedness mission returned to FEMA.
    IAEM supports hiring qualified and experienced emergency 
managers in the senior leadership roles at FEMA. The next 
Administration should continue FEMA's recent noteworthy efforts 
to involve State and local emergency managers in policy 
development. Not too long ago, I gently reminded our partners 
in FEMA that if they wanted us to be there at the crash 
landing, we should be in on the take-off. I am pleased to say 
that recently, there appear to be few crash landings.
    Our written testimony contains several examples of 
collaboration. We particularly appreciate the inclusion of 
State and local emergency managers on the National Advisory 
Council and several of the Regional Advisory Councils. We urge 
FEMA to recognize that one size does not fit all by giving more 
flexible guidance on their many grants.
    We urge the new Administration to keep the focus on all 
hazards, of which terrorism is only one. While terrorism is an 
incident to which we are all vulnerable, it is certainly not 
the most likely disaster to occur. All our communities are 
vulnerable on a daily basis to Mother Nature.
    We hope that the new Administration quickly chooses a 
highly-qualified Administrator with actual emergency management 
experience to run FEMA. Strong State and local emergency 
managers are a critical element to the future success of a 
National Emergency Management System.
    In order to enhance the capacity of this profession, there 
are a number of critical elements that the new Administration 
should embrace and promote. They are: Ensure emergency 
management policies are consistent with the principles of 
emergency management initiative; return the Emergency 
Management Institute to the forefront of preparing our 
profession's future leaders; support individual certification, 
Certified Emergency Manage (CEM), and program accreditation, 
the Emergency Management Accreditation Program (EMAT).
    We need FEMA's assistance in promoting community 
preparedness. We need to jointly work together in making our 
citizens survivors instead of victims. Some citizens are not 
able to help themselves, but the general population is more 
than capable of doing so. A survivor never asks, ``Where is my 
assistance?'' Instead, a survivor asks, ``How can I help fix 
the problems?'' Survivors act as force multipliers; victims 
become a liability.
    In conclusion, we hope that the new Administration will 
consider the critical elements IAEM has adopted. We believe a 
strong and independent FEMA with clear authority, direct access 
to the White House, and highly-qualified leadership is 
essential. We urge Congress to insist on full implementation of 
the Post-Katrina Emergency Management Reform Act. We urge 
continued involvement of State and local emergency management 
in policy discussions. We do not want any more crash landings. 
We stand ready to assist in any way we can. Thank you.
    Senator Pryor. Thank you.
    Our fourth and last panelist is Jane Bullock. She was Chief 
of Staff of FEMA when it was led by the legendary James Lee 
Witt and she is now an adjunct professor at GW's Center for 
Crisis, Disaster, and Risk Management. Thank you, and go ahead.

 TESTIMONY OF JANE BULLOCK,\1\ PRINCIPAL, BULLOCK AND HADDOW, 
 LLC, AND FORMER CHIEF OF STAFF, FEDERAL EMERGENCY MANAGEMENT 
 AGENCY, AND MEMBER OF THE ADJUNCT FACULTY, CENTER OF CRISIS, 
  DISASTER, AND RISK MANAGEMENT, GEORGE WASHINGTON UNIVERSITY

    Ms. Bullock. Thank you, Mr. Chairman. I appreciate the 
opportunity you have given me today to talk about something 
that is very important to me, to my peers on the panel, to the 
Congress, and most critically to the American people, and that 
is how we can better serve them during times of crisis.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bullock appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    I believe I bring a unique perspective to this hearing. I 
had the privilege of working as a career civil servant in FEMA 
for 21 years, culminating in my position as Chief of Staff to 
FEMA Director James Lee Witt. In my career at FEMA, I worked in 
earthquake preparedness, radiological emergency preparedness, 
flood insurance. I was the Director of the Office of Regional 
Operations and the Director of Public Affairs. And as a career 
civil servant, I served on the internal FEMA transition teams 
for Administration transitions in 1988, 1992, and led the 
transition team in 2000. Throughout this time, I worked 
alongside the most dedicated and talented civil servants in the 
Federal Government, who from 1992 to 2000 successfully 
responded to over 300 major disasters, including the 1993 
floods, the Northridge Earthquake, Hurricanes Floyd and Fran, 
and the Oklahoma City bombing.
    FEMA is a unique agency in that its entire mission is 
focused on helping American people to prepare for and mitigate 
the impacts of disasters, and when a disaster strikes, to 
provide support to individuals, families, and communities to 
effectively respond and recover. However, we always recognize 
that FEMA cannot achieve its mission on its own. Our ability to 
succeed was always dependent upon a working partnership with 
State and local governments, other Federal agencies, NGOs, 
nonprofits, and the private sector.
    All disasters are local and FEMA has been most effective 
when it has had the authority and resources to coordinate and 
direct the Federal Government's efforts to support State and 
local officials before, during, and after a disaster. 
Unfortunately, I believe the current Administration and the 
current political leadership at the Department of Homeland 
Security and FEMA do not understand this mission and do not 
know how best to achieve it. We saw this first in Hurricane 
Katrina and now, 3 years later, after the promise of reform and 
the talk of a FEMA renewal, we are seeing it again in the 
recovery to Hurricane Ike.
    As we look forward to the next 12 months, as you said, Mr. 
Chairman, change will be coming to Washington and to the 
Federal Government. During this period, we could experience any 
number of disasters--a major earthquake in California, which 
unfortunately is long overdue, severe storms, a flu outbreak, 
or a domestic terrorism event.
    What can be done in the coming months to ensure that should 
a major event occur, FEMA and the Federal Government will be 
prepared? What should the vision for the future FEMA in a new 
Administration be?
    FEMA needs to be returned to its former status as the 
world's best emergency management organization. In my written 
testimony, I lay out long-term goals. Now, I would like to 
briefly mention those, but focus on short-term activities that 
will support a heightened level of preparedness as we begin.
    To improve our preparedness long-term, we must: Make FEMA 
an independent agency and the Director a member of the 
President's cabinet; rebuild FEMA's partnership with State and 
local emergency management organizations; support risk-based 
all-hazards preparedness, mitigation, and response; invest in 
FEMA's career civil servants and strengthen the role FEMA's 
regional staff can play as the first line of defense; rebuild 
the Federal Response Plan; invest in hazard mitigation and 
support community disaster resiliency; and embrace the private 
sector, the NGOs, and the CBOs as full partners in our Nation's 
emergency management system.
    Obviously, all of this cannot be accomplished in the next 
few months, but there are some practical actions that can be 
taken now. There are three areas I would like to focus on: 
Rebuilding the State and local partnership; improving 
coordination at the Federal level; and taking a thoughtful and 
careful approach to personnel actions during the transition.
    First, I would suggest that the career leadership of each 
of the FEMA regions meet together with their State directors 
and local emergency directors to talk about what can be 
expected from FEMA during this period and how they will work 
together specifically to respond to a large event.
    As you have heard from the earlier panelists, FEMA has 
reached out to State and local partners, but if these meetings 
were to occur in each region, there would be an ability to look 
at what capabilities do exist. There are varying capabilities 
at the State and local level. An open and honest dialogue of 
what States can expect from the Federal Government and what 
FEMA can count on from State and local governments will go a 
long way towards managing the response and managing 
expectations of our citizens that may be impacted by a large 
event.
    At the same time, I would strongly encourage our regions to 
make the same effort to reach out to CBOs and NGOs and the 
private sector. There are many organizations that are now very 
active in response and preparedness as a result of the 
government failure in Hurricane Katrina. We will need their 
support in a major disaster, but it is important, as with State 
and locals to understand what assets they have and how they can 
be utilized.
    Second, I would encourage the senior career leadership at 
FEMA to convene meetings with their counterparts in the Federal 
departments and agencies to make sure that not just the mission 
assignments are done, but that the relationships exist and that 
they can provide a coordinated and effective Federal response. 
Relationships are what make disasters work.
    Under the new Federal Response Framework, the roles and 
responsibilities of the Federal partnership have been blurred 
and DHS and FEMA has tried to do it all by assuming more lead 
roles. I think this is a major mistake because DHS and FEMA 
simply do not have the expertise to do it all. The most 
effective Federal response mechanism evidenced in the 1990s was 
based on utilizing the expertise of the other Federal agencies, 
and this worked because FEMA provided the overall coordination 
and because we reimbursed them through the Disaster Relief 
Fund.
    I think an immediate step would be to meet with the Federal 
partners and establish simple short-term operating agreements 
as to the roles and responsibilities in the event of a large 
event. To be absolutely honest, I believe that in the event of 
a disaster, we will see a more effective Federal response 
because the senior career leadership in FEMA know what needs to 
be done and know how to do it. It will execute without being 
second guessed, without being restricted by indecision, cost, 
or political philosophy, as we have seen happen under the 
current Administration.
    Third, I would like to focus on personnel issues that are 
relevant to our ability to be prepared, and this is based on 
experience that I have had in going through transitions. I know 
there is concern over the numbers of positions at FEMA that 
remain unfilled. I would like to introduce a note of caution in 
rushing to fill these positions. In the rush to fill these 
positions, we are seeing individuals being selected who may be 
qualified on paper, but lack an understanding of what it takes 
to run a successful emergency management organization. We are 
seeing individuals hired who are ex-military or ex-Coast Guard 
who have good credentials but their disciplines are Federal-
centered. Their background and training is about calling the 
shots, being in charge, acting independently. Collaboration and 
coordination is often foreign to them. But those are the 
essentials for an effective preparedness and response 
structure.
    In addition, these disciplines often don't have a lot of 
experience working with State and local governments, don't 
recognize the importance of listening to our partners, 
listening to their ideas, their concerns, and their needs. As 
you know, the Constitution assigns public health and safety to 
the States. The Disaster Relief Act makes it clear that the 
Federal Government is called on when State and local capacities 
are overwhelmed. A strong effective system, national system of 
emergency management, must be built on this partnership.
    During a time of change, another major concern is to ensure 
that career positions are not filled by former political 
appointees from throughout the government who have very limited 
experience in FEMA. During the 2000 transition, all Federal 
agencies were required to inform Congress when a former 
political employee was chosen to fill a career position. I 
would urge Congress to request the same notification as we 
proceed through the next months. FEMA is a small agency with a 
very big mission and as such must be careful to hire only the 
best and most qualified.
    Finally, another issue has arisen relative to the FEMA 
Regional Directors. There has been significant discussion of 
converting the Regional Director position to career civil 
service and DHS and FEMA have said that they intend to do so as 
these positions are vacated. I believe this is a major mistake. 
As a former Director of FEMA's Office of Regional Operations, I 
have worked closely with FEMA's regions and their staff. The 
FEMA regional structure has always been built around a strong 
career Deputy Regional Director, and a political Regional 
Director who can be that critical interface with the political 
community of governors, local elected officials, and Members of 
Congress.
    In the 1990s, we found that FEMA's most effective Regional 
Directors were those political appointees who had the skills 
and experience to work in the political world dealing with the 
political issues while the career staff managed and carried out 
the necessary preparedness and response actions. These Regional 
Directors developed a level of trust with their career 
employees that allowed everyone to do their job.
    One final note on personnel in times of anxiety--in times 
of transition. Transitions are times of anxiety for career 
civil servants. The more the transition process can be open, 
transparent, and involve career employees, the unions, and the 
organizations that represent the civil service, the smoother 
the transition and the inevitable reorganizations will be. I 
would encourage and hope the Subcommittee, through its 
oversight responsibilities, could encourage the new 
Administration to endorse such an approach.
    In conclusion, I think it is time to take action to correct 
the mistakes we have made. During my 21-year career at FEMA, 
the agency was most successful when the President and the 
Congress made it clear that the Federal Government has a 
critical role in supporting State and local governments in 
disasters. FEMA was most successful when the FEMA Director had 
a strong relationship and direct access to the President and 
worked closely in concert with FEMA's dedicated career 
employees.
    We have the opportunity to restore FEMA and our Nation's 
emergency management system to the former status as the best in 
the world and to restore the confidence of the American people 
that their government will be there to help them when the next 
disaster strikes. Thank you very much.
    Senator Pryor. Thank you, and let me just start with you, 
Mr. Bourne, and put you on the hot seat first and ask you some 
questions. Some of these are follow-ups from some of the things 
that the other witnesses have said today, and obviously people 
have their different perspectives and all that, but I would 
like to get FEMA's perspective on several items.
    FEMA has been through a series of leadership changes in the 
last 7\1/2\ years and some structural changes, but this 
election and this new Administration will be the first time 
that there really is a full-scale change of Administrations for 
FEMA. I guess the first question is, do you feel that FEMA is 
preparing for that transition, and if they are, how are they?
    Mr. Bourne. FEMA is preparing for it and we are very well 
prepared, and obviously that is an ongoing process that is 
going to happen for months to come. To give you an idea just in 
broad outline, with the exception of one position, which will 
be filled within the next 60 days, all the senior executive 
career positions in FEMA are filled. The one that is not yet 
filled and will be filled in the next 60 days is the Deputy 
U.S. Fire Administrator.
    All of the senior positions throughout the agency, GS-15 
and above, predominately are filled. The vacancies that exist 
on the books right now are from our rapid expansion of 
converting the 4-year corps to career, which are happening now. 
Those are the cadre of on-call reserve, our temporary workers 
which the Congress has allowed us to do over the last fiscal 
year, this fiscal year, and our request for the next fiscal 
year.
    FEMA has roughly doubled in size. We went from 2,000 full-
time equivalent personnel to well over 4,000 now. We are at, I 
believe it is 3,600 in our hiring at this point and we continue 
to have about 500 in the queue that are going to be hired over 
the next several weeks. Now, that is not a rush. That has been 
an ongoing effort for, quite frankly, more than a year and a 
half, to build the competency level of the folks in FEMA.
    Our transition planning efforts are underway and have been 
actually underway since before the beginning of the calendar 
year this year, based on these basic areas: Knowledge transfer; 
the succession planning that we have done within each of our 
directorates and offices; communications outreach, not only 
which has begun with our employees, but they are actually in 
the process now of developing 60-, 90-day plans for the 
immediate days after the election takes place and the 
inauguration happens so that the critical path issues are 
identified, ready to be teed up and addressed; our readiness, 
which has increased over the last several years.
    We are leading the effort to develop the Federal 
Interagency Con Plan for the period of heightened alert, which 
is ongoing, being managed through our planners in the Disaster 
Operations Directorate, along with other Federal agencies. We 
are in the process of also making sure that our management and 
administrative practices are not only fully documented and up 
to date, but that we are providing a guidebook that--
essentially how FEMA operates, so that whether--whoever comes 
in the door after January 20, and whoever is part of that 
transition post-election is going to have a very in-depth 
knowledge to draw from.
    Also, that transition binder, which is in the process of 
being developed now, is not going to be made just available to 
the new Administration when they are identified, but it is 
actually going to be provided to every single FEMA employee, 
and the purpose of that is it is the first comprehensive 
mission and function guidebook that the agency has had and it 
is rather what I will call a fairly extensive yet easy to read 
digest of every program, of what each directorate does, its 
relationship to the other directorates.
    So the planning process has been well underway and we are 
at this point updating parts to it as opposed to trying to 
develop it while we are in the middle of hurricane season.
    Senator Pryor. So it sounds like from your response, which 
was a detailed response, you share my concern about the fact 
that gaps sometimes are created during a transition period and 
it sounds like you are doing, at least from your perspective, 
everything you can to make sure those gaps don't exist, is that 
right?
    Mr. Bourne. We are doing a lot. Exactly. We are trying to 
find as many of the gaps, fill as many of those as we can. 
Where there are gaps that cannot be addressed in the time we 
have remaining, we have put together options for remediation 
that we will pass on certainly to the folks that follow us.
    The Administrator is very concerned to make sure that there 
is not a single dropped disaster or a crash landing, as my 
friend from Florida would say, but to try to make sure that it 
is a seamless transition for the agency. The career SES staff 
in FEMA are intimately involved with this process and it has 
been a collaborative process right from the beginning.
    Senator Pryor. Great. Let me follow up on one thing you 
said a few minutes ago. You talked about how all but one of 
your senior career positions have been filled. Were those 
positions filled with career people or were they filled with 
political people that were moving into career positions?
    Mr. Bourne. They have been filled with career folks. We 
have not moved political people into SES slots. There has only 
been, I believe, one political in the whole agency that 
successfully competed for a GS-14 slot in preparedness. He was 
a Schedule C, he was not a SES. That went through the OPM 
process for review, so it was vetted fully, and I believe that 
has also been made available as per Congressional requirement 
as part of the notification process.
    Now, we have talked many times about who are the political 
folks in FEMA and how were they hired and what experience they 
have. The Administrator has only hired political leadership in 
FEMA that has extensive emergency management and public safety 
experience. Our seven regional administrators that are 
political all have more than 20-plus years in this business, Ed 
Buikema being one in Region V, as well as many of the others. 
The three career regional administrators come also with 
extensive both political and what I will call career 
experience--Nancy Ward in Region IX, which is California, Phil 
May, who goes back many years in FEMA, both as a former 
Regional Director, also has extensive experience, and John 
Sarubbi, who came to us out of the Coast Guard has extensive 
emergency experience from his days, as well.
    So there is not just a hiring of a political person for 
political sake. It is actually people that come with experience 
and we hope that would continue regardless of what positions 
are political in the future in FEMA or not.
    Senator Pryor. All right. I do want to talk a little bit 
more about some of those personnel matters in a minute, but 
first, let me ask about the National Response Framework, which 
is the document that sets out the lines of authority and 
decisionmaking in a disaster. The document itself is out, but 
the annexes that support State, local, and private sector 
entities, the so-called partner guides, as well as the 
catastrophic index, have not been completed. So my question to 
you is when will they be completed and is this something that 
you are going to leave to the next Administration to clean up?
    Mr. Bourne. No. Actually, those are well on the way towards 
completion. They have been in the process of being vetted, not 
only by the organizations in the private sector or the State 
and local sector that are part of that, but they are in the 
process also of being finalized so that they can be published 
prior to the end of this calendar year. Those partner guides 
were designed to provide additional support to State and local, 
private sector, and NGOs, and they are being written with those 
folks not only in mind, but also with those folks involved, and 
that process should be completing and being wrapped up over the 
next month or so.
    Senator Pryor. OK, because honestly, in different contexts 
within FEMA, we have asked for things in the past. This has 
been a frustration on the Committee and the Subcommittee. We 
have asked for things in the past and receive excuses such as, 
``Oh, we are going to do that next week, next month,'' 
whatever, and sometimes it takes entirely too long to get----
    Mr. Bourne. It does, and that is something that we have 
concern about, as well. Not to make an excuse for it, but FEMA 
had over 275 specific taskings in the Post-Katrina Emergency 
Management Reform Act----
    Senator Pryor. Yes.
    Mr. Bourne [continuing]. That we have had to address, work 
through while trying to also obtain additional staff in order 
to beef up our ability to respond as well as plan. And so it 
has kind of been a bit of a juggling act at times for us, but 
we have gotten a significant amount of help from our State and 
local partners and others to try to make it successful, and we 
don't relish the idea of missing deadlines, but we are 
certainly pressing forward as expeditiously as we can.
    Senator Pryor. All right. Let me change gears on you again 
here and talk about the National Strategy for Pandemic Flu 
Implementation Plan. It has not clearly addressed the roles of 
DHS, FEMA, versus HHS. It also does not address how FEMA and 
HHS will work together on sheltering a recovery over a long 
period of time. To me, it seems that it should address these 
two matters. Do you think that it should, and what kind of 
guidance would you like to see from FEMA over the long term?
    Mr. Bourne. That is actually a very good question and an 
interesting one on several levels. We have been working closely 
with not only HHS, but the Office of Health Affairs in the 
Department and Admiral Crea, who is leading the departmental 
effort on the pandemic plan with HHS. Certainly, FEMA has got a 
role to play, not necessarily as a primary coordinator of 
activity, but to support the larger Federal response.
    Some of our regional administrators and our Federal 
Coordinating Officers have already been predesignated for 
various regional planning efforts and they are intimately 
involved with that. Our Disaster Operations Directorate is also 
involved with the more detailed planing, which is going on now 
to address the issues that you have brought up.
    Certainly in a pandemic, the sheltering issue and the 
recovering issue is one that this country has not faced in 
about 90 years or so, and there was not at that time the 
ability to move not only people, but also material and support 
like we have today. The vast majority of these issues that are 
going to be raised in pandemic may require sheltering in place 
and supporting that and we are working with HHS to determine 
what we can bring to the table to support State and local 
efforts to address those problems because that is going to be 
probably the trickiest part of the entire operation, beyond the 
fact of getting the Strategic National Stockpile deployed and 
delivered, doing the additional prophylaxis that needs to be 
done to prevent additional folks from getting whatever it is 
the pandemic is being caused by.
    So our folks are actively engaged in that. I don't have all 
the details of that planning at my fingertips, but I would be 
happy to share that planning with the Subcommittee.
    Senator Pryor. Great. I am not going to ask all my 
questions to you, Mr. Bourne, but I do have a few more. I just 
want to cover some of these subjects since this will be the 
last hearing of the Subcommittee for the year and it will be 
the last one we have before the Presidential race and until we 
get back in January.
    I want to ask about the National Disaster Housing Strategy. 
I understand that the comment period for the draft strategy was 
just extended to, I think, September 29. How is the comment 
collection process going? In other words, when I hear you have 
an extension, that makes me wonder, are you getting a lot of 
comments or not enough comments? I would like to know how that 
is going and how FEMA plans to incorporate these final comments 
into the strategy?
    Mr. Bourne. So far, I believe--and I don't have the exact 
numbers in front of me--as of the other day, there were 16 
specific commentors with over 80 specific comments so far. Many 
of those came from one or two commentors. We have extended it 
in order to provide additional opportunity for folks who have 
been certainly listening to the hearings of the last 2 days to 
get a better understanding of what their thoughts are. We 
continue to encourage them. We will continue to take comments 
really after the comment period is over anyway. If they are 
filed with FEMA through the docket, we will continue to 
incorporate those.
    All of the comments will be responded to. All of the 
comments will be addressed within the revised and final 
strategy. There will not be a comment left out of the process. 
Each commentor will learn what the adjudication of their 
comment was and what the rationale for either accepting it, 
modifying it, or not accepting it was.
    Senator Pryor. And when do you think we will see the final 
strategy?
    Mr. Bourne. Our goal is to get it done before the holidays.
    Senator Pryor. Before the end of the year?
    Mr. Bourne. Well before the end of the year.
    Senator Pryor. And there has also been a National Disaster 
Housing Task Force. Basically, I think, a lot of these 
decisions have really been ceded to the task force. Has that 
been established yet? Is it up and running yet?
    Mr. Bourne. Well, I do want to correct one misimpression 
that folks may have. The task force is not--the responsibility 
for the other piece is--the annexes which folks have been 
talking about has not been ceded to the task force. That is 
actually--those annexes are well underway and being drafted by 
FEMA staff and other folks within the Federal interagency, to 
include the Red Cross, HUD, and a number of others. Those 
annexes, six of which are nearing the point where they can 
begin a review process. The seventh of them, which is the final 
one, is really kind of a conglomeration of issues that we think 
need to be addressed by future Congresses and that one won't be 
completed until the rest of the annexes have fleshed out their 
requirements and their needs.
    Senator Pryor. Is the task force up and running?
    Mr. Bourne. The task force is up and running. It is being 
temporarily led by Susan Reinertson, who is our Region X 
Administrator. She has come in to help stand it up while we 
hire full-time staff to support that effort. The Red Cross, 
HUD--I want to say two or three other agencies that are 
escaping me right now have also not only lent support to it, 
but they have actually provided staff support to help that task 
force stand up.
    Senator Pryor. Will the task force have continuity over the 
next year or so through the transition?
    Mr. Bourne. Yes. As a matter of fact, it is all career 
people and that continuity will continue, and their mission and 
mandate is to not only continue to support the final effort to 
finish the strategy in general, but also to take the strategy 
and begin to develop ideas on better implementation of not only 
FEMA's housing role, but to work with State and local folks to 
determine how housing can be handled in the future and what new 
ideas are available within the marketplace or what needs to be 
developed to address unique challenges.
    Senator Pryor. All right. Let me change gears on you again. 
FEMA, by its nature, always has some matters that are still 
open. One of those would be right now, the Hurricane Katrina 
recovery effort is still ongoing. FEMA is still involved there. 
Obviously with Hurricanes Gustav and Ike, the same thing. I 
mean, you are still very much involved in those matters. They 
are still open.
    Do you have any specific plan on turning these open cases 
over to the next Administration, or is your hope that they will 
just continue along as they are doing, most of the career 
people? How does that work?
    Mr. Bourne. They actually are--most of FEMA's workforce, 
quite frankly, an overwhelming percentage, somewhere in the 90 
to 99 percent range, are the career folks. They manage the 
disasters. They are the ones populating the Joint Field 
Offices. They are the ones that manage the effort with regards 
to the temporary or the Transitional Regional Offices that are 
out there in the Gulf.
    Quite frankly, we still have an open office and open 
projects from the Northridge Earthquake in 1994. There are a 
number of disasters that span many years because some of these 
projects, quite frankly, going on for many years. So that is 
something that transfers from one Administration to the other 
routinely throughout the course of FEMA's history and we don't 
see any change in that transfer happening that would upset the 
progress being made.
    Senator Pryor. Well, let me just ask for a little point of 
clarification. I have a note here that says FEMA has the 
highest percentage of political appointments among operational 
DHS components. Thirty-four percent of FEMA executives are non-
career appointees. Are you saying the overall workforce is 90 
percent----
    Mr. Bourne. I don't know the exact percentage, but out of 
4,000 authorized FTE, there are only 16 non-career SES 
appointments. There are only four or five Schedule C 
appointments. And there are five Senate-confirmed positions.
    Senator Pryor. So you are saying you only have 25 or 30 
political----
    Mr. Bourne. That is correct.
    Senator Pryor [continuing]. Appointees and----
    Mr. Bourne. Yes, and as a matter of fact, there are fewer 
Senate-confirmed positions in FEMA now than there were back in 
the 1990s or the 1980s.
    Senator Pryor. OK. Let me again change gears here for a 
moment. FEMA has initiated a Catastrophic Disaster Response 
Planning Initiative, and could you give us a little more detail 
about the initiative and is it adequate and what lessons have 
you learned from it that you think are important to carry 
forward for the next year or two?
    Mr. Bourne. Well, there are actually two parts to the 
catastrophic planning we are doing. One, we would support a 
Congress-provided catastrophic planning grants to, I believe, 
five major urban areas in the country to address catastrophic 
events in those major urban areas. But we have also been doing 
catastrophic planning on very specific disasters, South Florida 
specifically, Lake Okeechobee, and the planning in Miami-Dade 
and that region. In California, the Sacramento area with 
regards to the levees that surround the Sacramento Valley and 
what would happen if an earthquake undermined those levees and 
what would happen with salt water seepage into that region. We 
are also looking at the New Madrid Earthquake Seismic Zone.
    All of these efforts have been underway for a couple of 
years now and they are essentially bottom-up planning efforts. 
They are a combination of local officials, geological folks, 
depending on the type of hazard being faced, Army Corps of 
Engineers and ourself and our regions are very much involved in 
that planning process and we expect those to continue, not only 
into the next year, but into the next several years.
    Senator Pryor. Yes. The New Madrid Fault issue is important 
to us in our State because it is just immediately to the north 
of us and really runs down through Arkansas, the Eastern part 
of the State--the extreme Northeast part of the State. It is 
one of those areas, when they talk about earthquakes, that is 
often overlooked. People think about the West Coast, but 
geologists tell us that a New Madrid earthquake could be much 
worse than what you see on the West Coast, given the nature of 
the soil and the various conditions. So I am glad to know that 
planning is moving forward.
    Is that something that has a target date where you are 
trying to get all the planning complete and you are going to 
have that wrapped up by a certain point, or is that just an 
open-ended----
    Mr. Bourne. It is somewhat open-ended because obviously as 
science provides us with more tools and understanding and as 
the built environment changes within those communities--New 
Madrid earthquake, for example, is a process that started a 
couple of years ago and I believe the planning process is built 
out through the next two fiscal years, at least, before there 
is what we will call--I don't want to say a hard stop, but a 
soft stop at that point to determine that all the planning from 
bottom up has been completed.
    There are a number of exercises that are planned over the 
next couple of years to address various aspects of the plan. So 
it is kind of an ongoing effort, but the bulk of the majority 
of the planning will be done over the next year or two.
    Senator Pryor. I think that is great. Let me also ask about 
how FEMA is doing in finding ways to measure progress on 
preparedness. I know this has been a challenge, where you, I 
guess you can call them metrics. You are really looking for 
ways to measure what you are doing and how prepared you 
actually are. As I understand it, there is currently no 
inventory of Federal capabilities even though one is required 
in the Hurricane Katrina law that we passed. And so if there is 
not a good inventory of Federal capabilities, it is kind of 
hard for us to figure out how to distribute grant monies and 
which local entities should get what. Do you have any comments 
on that, or is there any progress on that?
    Mr. Bourne. There is. Part of it is what is available 
within the Federal Government to support capabilities in the 
field, to support State and local. There actually is an ongoing 
development and an ongoing inventory of Federal assets that are 
available to FEMA. Our Disaster Operations Directorate has 
begun that process. It is being assisted by the National 
Preparedness Directorate.
    Senator Pryor. When will that be completed, do you know?
    Mr. Bourne. It is constantly evolving and being added to. 
There is already a base amount that is available to us and we 
do it through what is called the ESFLG, which is the Emergency 
Service Function Leadership Group, which is made up of all the 
Federal agencies that support FEMA in disasters. They have been 
working that project for a number of years.
    What we don't have yet is what we will call the assessment 
of State and local capabilities which is under development in 
two ways. One, through the Federal preparedness reporting that 
the National Preparedness Directorate has been working with the 
States and locals to develop. The idea is what questions should 
we be asking State and locals about their capabilities?
    A Target Capabilities List, which already exists, is going 
through a bit of a transformation because one of the challenges 
of the original TCL project was it was very voluminous, very 
difficult for State and locals and first responders to 
understand what their capability should be, and the TCL 
Redevelopment Project that has been going on for the last 7 
months or so is looking at each TCL. We have been going out 
within the regions, bringing together stakeholders of hazardous 
materials experts, State emergency managers, local emergency 
managers, experts in the field to change the way the TCLs are 
presented, understand what they really mean so State and locals 
can make decisions about what capability they wish to build. 
When that project is completed, there will be a better way to 
inventory what is required.
    Second, we are taking a look through what is called the 
Cost of Capabilities Project in our grant shop. Grants is 
taking a look at what have we spent money on going back as far 
as we possibly can, given the records of early grants up to the 
grants now, and trying to make a determination as to what has 
been accomplished so far using the eight preparedness elements 
in the National Preparedness Goal as kind of a benchmark. And 
the idea is to say, what have we spent money on? What 
capabilities have potentially been built with that spending? 
And what capabilities remain to be realized because not all of 
the money may have been spent yet?
    And that effort is already underway. We expect some 
preliminary results in the next 6 months, and then it will 
become an ongoing part of the process. Grants feed a portion of 
preparedness. Training feeds a portion of preparedness, 
exercises, etc., and the National Preparedness Directorate is 
pulling together that umbrella that pulls all those things in 
so we will have a much better management picture.
    Senator Pryor. Well, it turns out we have a couple of 
experts on State and local matters here, so let me ask them, 
Ms. Dragani and Mr. Gispert. On the State and local level, is 
it difficult to assess what your capabilities are and how is it 
working with FEMA? Is that being coordinated?
    Mr. Gispert. Ladies first.
    Ms. Dragani. Thank you, Mr. Gispert. On a State level, it 
has proved challenging to assess our capabilities because we 
are not sure what capabilities yet we need to build. So I think 
as the Target Capabilities List becomes more fleshed out, 
easier to understand and easier to translate, with clearer 
guidance and clearer risk analysis, then it is easier for 
States to identify what capabilities they need.
    Senator Pryor. And are you waiting on FEMA for that?
    Ms. Dragani. No, we are not waiting on FEMA for that. I 
think that there is a point where it is the responsibility of 
State and local government to move forward, because ultimately, 
we are responsible for our citizens. So I think most States and 
governments are moving forward. They are analyzing their risk. 
They are developing the capabilities that they think they need 
based on the risks they know they have.
    Senator Pryor. OK.
    Mr. Gispert. Mr. Chairman, it is not that we have not 
assessed ourselves. We have assessed ourselves to death. Since 
the implementation of the Homeland Security Grant Program, 
every year, the focus has changed and we have always shifted 
off counting different widgets for different budget years.
    Senator Pryor. Give us an example of that.
    Mr. Gispert. Originally, when the Homeland Security Grant 
Program came out, it was absolutely forbidden to buy anything 
that could be used for anything other than a response to a 
terrorism event. We kept hammering back, all hazards. Why can't 
we buy a device that can be used in a hurricane as well as a 
terrorism event? Eventually, DHS and FEMA relented and we have 
been able to do that the last couple of years.
    We went under what was called the National Plan Review, 
sir, after almost an 8-year Administration, we were suffering 
being assessed by idiots. I have been in this business 28 
years. These people had no clue what we did at the local level 
and they came down and said, ``Thou shalt do it this way,'' and 
we said, ``No, we won't. We have spent the last 30 years 
planning from here to here to here.'' The response was, ``No, 
you will do it.''
    I will have to tell you, mostly it was our friends in the 
Department of Defense who wanted to implement a defense 
planning strategy on the local levels. We are civilians. We at 
the local level have command and control of nothing. We 
coordinate and cooperate. We ask people to do things. We don't 
command them to do it. And you cannot plan a pure structured 
response to a scenario under the command and control structure 
if you don't have that ability to command people.
    So what we do at the local level is if we need dump trucks, 
we ask who has them? Are you willing to give them? Yes? OK, you 
are in the plan. And we go around and we look for whatever 
needs to be done, and we have done that for years and years and 
years.
    I will say in defense of the current FEMA Administration, 
that reaching out to locals improved after they initially 
issued the National Response Framework (NRF). We raised hell 
about the NRF because it was totally different from what we 
have ever had. They withdrew it. They asked for our comments, 
and they came out with a document that we all could live with. 
They have been reaching out to us. But sir, that is 1 year in 
an 8-year Administration.
    What we are saying in our comments here is not that they 
are bad people now, but the question is what happens after 
January 20th? Do we continue this collaboration or do we go 
back to the Federal ``Thou shalt do this''? We tell you that we 
are at the local level. We are where the rubber meets the road. 
We have to have a partner. We don't need a commander, we need a 
partner. And when you have certain assets at the Federal level 
that we don't have at the local level and we ask for them and 
we need them, we need them now.
    So once again, what we are hoping is that the outreach that 
the FEMA people have done over this last year will continue in 
the new Administration, and I think we will get there. And some 
of those loose-ended projects, Congress asked for will get 
completed. In their defense, they got pulled 30 different ways. 
You gave them, you will do a National Housing Strategy and do 
it in 30 days or whatever it is. The next thing you know, they 
are doing this, and they can only do one thing at a time.
    Senator Pryor. Right.
    Mr. Gispert. So those are my comments, sir. I am sorry.
    Senator Pryor. No, that is good. You both have said it is 
sometimes difficult to assess your capacities to do certain 
things. I know that a lot of people who have looked at this say 
that in spite of us spending $4 billion with HHS that has gone 
to State and local hospitals for preparedness, many folks 
believe that our hospital system and emergency management 
community is just unable to handle a prolonged bioterrorism or 
flu-type epidemic, some sort of pandemic. In your experience in 
your local and State areas, do you feel like your hospitals are 
capable of handling a long-term challenge like that?
    Mr. Gispert. Define long, please. How long are you talking 
about, 30 days? Sixty days?
    Senator Pryor. Well, or longer, like a flu pandemic.
    Mr. Gispert. The answer is, no, we cannot do it.
    Senator Pryor. Yes.
    Mr. Gispert. In Florida, our hospital capacities are at 95-
plus percent all the time. That means they don't have very many 
spare beds. So when we have a catastrophe, they start putting 
people in the hallways and those kind of things.
    They couldn't do it for a long period of time.
    Senator Pryor. Do you know if your hospitals have 
collaboration agreements with other hospitals in the region----
    Mr. Gispert. Yes, sir.
    Senator Pryor [continuing]. And in the State and have they 
worked on those contingency plans?
    Mr. Gispert. Yes, they have. The hospitals are different 
because that is where the private for-profit scenario comes in 
and sometimes government has very little decree over a private 
for-profit hospital. But they have collectively planned with us 
at the community level. They know that they are going to be a 
part of the emergency response. I have 14 active hospitals in 
my community and we plan on a yearly basis and have what we 
call a mass casualty drill----
    Senator Pryor. Right.
    Mr. Gispert [continuing]. Which is at least 200 patients 
and what have you. It has always been the agreement between 
local, State, and Federal Government that the locals hold the 
fort until the cavalry comes.
    Senator Pryor. Right.
    Mr. Gispert. Now, you can define that as 3 days, 4 days, 
but we can't go extended periods of time. And then the State 
comes in with the resources from the other surrounding 
counties, and when they get exceeded, here comes the Federal 
Government. That is the theory behind all this. So the locals 
are only supposed to hold the fort for a short period of time 
while the cavalry is mustering and coming to our help.
    Senator Pryor. Ms. Dragani, did you have any comments on 
that?
    Ms. Dragani. I do. I think that hospitals don't have the 
capacity to handle mass casualties on any broad scale. However, 
building the system with public health, with acute care centers 
that can take those non-critical patients and provide them with 
the resources, the IVs and the fluids and those types of non-
critical care support will free up hospitals to continue to 
provide the critical care.
    But I would also say, if I may, Senator, you commented 
early on about pandemic. There is no other organization, I 
would submit, in the Nation that is more capable or qualified 
to pull together a pandemic response than the emergency 
management community because we are collaborators. It is about 
sheltering or providing food, caring for people, pulling 
together information and intelligence. It may not be a typical 
disaster, but it absolutely will be a crippling disaster, and I 
think the emergency management community, whether it is State, 
local, or Federal, is the right organization to pull that 
response together.
    Senator Pryor. OK, great. Ms. Bullock, you mentioned 
something in your statement about, as I understand it, you 
think it is important to have political appointees out in these 
regional offices. Could you elaborate on that? As I understand 
what you said, it is because the political appointees do well 
in dealing with local political people. Is that what you said?
    Ms. Bullock. We all know that disasters are political with 
a small ``p'' and it becomes an important issue for a governor, 
for a local elected official, for Members of Congress when they 
are back in their districts to be able to talk about some of 
the political issues with an equivalent, to be able to talk 
about some of the political issues with someone who can get a 
connection back to the political head of FEMA.
    The career staff often get intimidated in terms of 
dealing--and this is what we saw throughout the 1980s and 
1990s--often get intimidated in those circumstances and also 
often don't think about the politics of disasters. And the 
structure--and we had a lot of that--back in the 1980s when I 
was running the Office of Regional Operations, there was a lot 
of discussion about making the Regional Directors career. In 
some regions, we had to depend on career deputies to fill in. 
But it is very clearly important that when we look at how FEMA 
delivers a response, we use the career people to do what they 
do best, but it is very important that there is a political 
entity in that regional office.
    Senator Pryor. So you think it would be a mistake for FEMA 
to fill all those positions with career people?
    Ms. Bullock. I absolutely do, and I think it is a mistake 
that they have already filled three of them.
    Senator Pryor. Well, let me ask Mr. Bourne from FEMA, 
because you mentioned this in some of the early questionings 
and maybe even your opening statement, about these positions, 
these regional offices, and I think you said there are now 
three career civil service people in those, what, out of nine--
--
    Mr. Bourne. Out of ten.
    Senator Pryor. Out of ten positions? Let me hear your 
thoughts on why you think it is important that we put career 
people there.
    Mr. Bourne. Well, one, kind of an overarching point, being 
a political person within FEMA should not necessarily equal to 
incompetence, which some people like to believe that is the 
case. It may have been in the past, but the idea is that folks 
with political acumen can exist both in a political job as well 
as a career job. We have a long history in FEMA that goes back 
throughout its entire history of the former regional directors, 
now regional administrators, the political slots being vacant 
for extended periods of time where the deputy regional 
directors, regional administrators, were essentially filling 
both roles for 18 months, a year, 2 years at a clip.
    One of the challenges that Administrator Paulison had to 
face when he first got the job was not only making sure that 
the positions were filled, whether they be political or 
otherwise, and at the time they were all political positions, 
but also to make sure that they were filled with people who 
understood the business of emergency management and emergency 
response, and that is why he was able to actually pick and hire 
these folks without any kind of interference or what I will 
call the political side of the equation overly influencing the 
selection of the candidate who ultimately was in the job.
    Now, there was a reason that we picked those three regions 
to be the ones that are career. One, they are regions that have 
had vacancies in the political leadership before for extended 
periods.
    Two, they are three of the busiest regions of all the FEMA 
regions, and quite frankly, we filled them with executives who 
not only understand how to do emergency management and 
collaboration, but they also have a background that allows them 
to understand the politics of working with a State and local 
government. Their connection is to governors, to chiefs of 
staff, to the Emergency Management Directors in those States, 
and to all of those folks, and we have encouraged all of our 
regional administrators, whether they are career or political, 
to make those connections and to build those relationships 
regardless of who is sitting on the other side of the phone or 
the table.
    So when we talk about, should they all be career, we have 
never said they should all be career. We don't know whether or 
not they should all be career. We have thought about how many 
should be or shouldn't be and we have wrestled with this, as 
well. And that is why there has been no movement beyond the 
three that were chosen. Nancy Ward has an extensive background 
that I think anyone at this table would recognize, as does Phil 
May and others. So I think it is a question of if I could 
convert a political today, there are a number of current 
regional administrators who are political that are far more 
capable than many of staying on in those roles, but that is not 
what we are doing. We believe the new Administration has to 
have an opportunity to weigh in on that.
    Senator Pryor. All right. If there are vacancies in these 
remaining seven positions between now and January 20, which is 
4 months from now, is FEMA's plan to fill those with career 
people or just leave those vacant?
    Mr. Bourne. No, they will remain vacant and they will be--
the deputy administrators within those regions that may become 
vacant will take over, as they are trained to do and designed 
to do, to act as the interim until the new Administration 
determines how it wishes to fill those positions.
    Senator Pryor. Ms. Bullock, did you have any comment?
    Ms. Bullock. Mr. Chairman, yes, if I could make a comment. 
One thing that I failed to mention was the FEMA regional 
directors are unique in that when we have large disasters and 
we have multiple disasters, they are basically the President's 
representative at that disaster. When the Director of FEMA 
can't be at 22 different States, the regional director 
represents the President and it is very important that the 
regional director and the FEMA Director have the confidence of 
the President.
    And as I said before, why we do this is so the deputy 
regional director, the career people, can count on running that 
disaster, doing the nuts and bolts that need to be done day to 
day on that disaster, and the political regional director can 
be looking out for the best interests of the citizens, be 
looking out to make sure that the President and the Director of 
FEMA's desires are being taken care of.
    Senator Pryor. OK. Let me ask this of our three non-FEMA 
witnesses because I know what FEMA is going to say on this. 
There has been a little bit of a controversy in the 
Subcommittee for the last, 4 or 5 years about whether FEMA 
should remain part of Homeland Security or be a separate entity 
like it was under the previous Administration. A couple of you 
have already voiced your concerns and I would like to hear just 
a little bit more on where each of the three of you are on how 
you think FEMA should be structured in the next Administration.
    So Ms. Dragani, let me start with you. I don't think you 
mentioned it in your statement. If you did, I missed it, but I 
know the other two did. Go ahead.
    Ms. Dragani. All right. I did not, Mr. Chairman, mention it 
in my statement. It is at this point more important to the 
National Emergency Management Association and our members that 
wherever FEMA is, in or out of DHS, the FEMA Administrator has 
direct access to the President and the organization is 
adequately resourced, trained, prepared, and ready to respond 
to our needs. So at this point, we don't have a formal 
position, in or out.
    Senator Pryor. Do you have a personal view?
    Ms. Dragani. I would like to go back and think about it a 
little longer. It is a position that--it is a decision that 
obviously will have extraordinary impacts on both my profession 
and the Nation as a whole.
    Senator Pryor. Mr. Gispert, you mentioned in your testimony 
that your organization is for breaking FEMA away from Homeland 
Security. Could you elaborate on that a little bit more?
    Mr. Gispert. Once again, I represent local emergency 
managers where the rubber meets the road. A large majority of 
our members would prefer a stand-alone FEMA. It comes from a 
long history that when we were originally taught emergency 
management, we were taught that emergency management performs 
best when the emergency manager reports directly to the CEO, 
whatever you may call that CEO. You may call him the president, 
you may call him the chairman of the Board of County 
Commissioners, you may call him the mayor. You do not need 
interloping people in between that person and the CEO.
    Regardless of the personalities involved, if somebody 
reported to me when the sun was shining, I would want to be 
involved when the proverbial hits the fan. It is kind of hard 
to back away and say, you report to me on a daily basis, but 
when all hell is breaking loose, you report to the President.
    So we think for a most efficient form--it has its problems, 
also, but for the most efficient mechanisms of delivering the 
programs of FEMA, FEMA needs to stand alone. It needs to report 
directly to the President, however that is couched, whether it 
is a cabinet level or however. It needs to be a stand-alone 
agency. FEMA does not need anybody standing between them and 
the President.
    Senator Pryor. Ms. Bullock, when you were at FEMA, you were 
there for 21 years?
    Ms. Bullock. Twenty-one years, yes.
    Senator Pryor. And so you saw a lot of different directors 
there and a lot of changes in that agency over time, both a lot 
of personalities involved but also administration philosophy 
impacting FEMA. Give us your thoughts on whether FEMA should be 
taken out of Homeland Security.
    Ms. Bullock. Well, there is no issue that I feel more 
passionate about. The mission of FEMA, to a degree, is 
inconsistent with the mission of the Department of Homeland 
Security. The Department of Homeland Security prevents 
accidents from the skies. It prevents immigration over the 
borders. The mission of FEMA is to protect our people and to 
work with them to prepare and respond and mitigate disasters.
    The necessity for the Director of FEMA to represent the 
President during a disaster is unquestionable. When we had 
disasters during the Clinton Administration and James Lee was 
the Director, every single other Federal agency knew that if 
James Lee needed something, he could get on the phone and the 
Secretary of the Army would pick up the phone--excuse me, the 
Secretary of Defense, DOD, would pick up the phone and say, 
``James Lee, if you need it, we will get it there.''
    We saw none of that happening in Hurricane Katrina because 
the head of FEMA didn't have the connections and relationships 
with their equivalents in the cabinet, and Secretary Chertoff 
was busy with other things. What would have happened if during 
Hurricane Ike we had a major terrorism event? Where would 
Secretary Chertoff have been? The Director of FEMA would have 
been handling Hurricane Ike, but then when the consequences of 
that terrorism event were realized, after it became not the 
crime scene, FEMA would be there.
    I cannot explain how strongly I feel that FEMA being moved 
into DHS saw a diminishing of its resources. It saw a 
diminishing of an incredible career staff. And it saw a 
diminishing of its ability to carry out what the President 
needs to have carried out during a disaster.
    Senator Pryor. Before the Clinton Administration, was FEMA 
a separate stand-alone agency?
    Ms. Bullock. FEMA has always been a separate stand-alone 
agency. It was not until the Clinton Administration, however, 
that the Director of FEMA----
    Senator Pryor. Became cabinet----
    Ms. Bullock [continuing]. Became a member of the cabinet. 
The agency is not cabinet level and I would not be recommending 
that. But it is very important for it to be stand-alone.
    Senator Pryor. You do not recommend it be cabinet level?
    Ms. Bullock. Not at this point. I think that would have to 
be more carefully studied. But I do believe the Director of 
FEMA must be a member of the cabinet, similar to how the SBA is 
not cabinet level, but the SBA Director is a member of the 
cabinet.
    Senator Pryor. And also, is it fair to say--I am not trying 
to put words in your mouth--is it fair to say that, given your 
21 years at FEMA, the best model that you saw was the Clinton 
Administration model for FEMA?
    Ms. Bullock. Absolutely, and the reason it was the best 
model was, we had a director who knew the President and could 
count on his support. We had a President who understood that 
during time of need, the American public expected their 
government to be there and we were there. And we had people in 
the director's office who listened to the career people, who 
understood what needed to be done.
    We were extremely lucky in the fact that James Lee Witt was 
one of the State Emergency Managers. Prior to James Lee, FEMA 
had a series of directors who had limited disaster experience 
and look what happened. We had Hurricane Hugo. We had the Loma 
Prieta Earthquake. We had Hurricane Iniki, and then finally 
Hurricane Andrew, where the agency was going to actually be 
abolished. There was a bill in Congress abolishing it. It 
wasn't until we had an Administration who really understood 
that disaster response is a fundamental chore for government 
and it has to be done in collaboration with State and local 
governments.
    My concern is DHS is taking a top-down approach. I am very 
happy to hear in the last year that they have been 
collaborating with State and locals, but if you look at what 
has happened in DHS, it is top-down. They are telling State and 
local governments what to do. They are telling the private 
sector what you can or can't do as part of a response. That is 
not how disaster responses work well. And all you have to do is 
look at the successful track record we had in the 1990s. We 
don't need to reinvent the wheel. We have a successful model.
    Senator Pryor. And Mr. Bourne, am I correct in assuming 
that your official position is that it stays where it is?
    Mr. Bourne. That is the position of the agency and the 
Administration and certainly the Department, and it is the 
position of the administrator. I have been personally there 
when he has gotten calls directly from the President at 6:30 in 
the morning. He has absolute access to the President. That has 
not been an issue in the last 2\1/2\ years. He is the one that 
travels with the President to disasters. He is the one that 
briefs the President, as well, and the Department has been very 
supportive during the time that Administrator Paulison has been 
in charge in being fully supportive. We have been able to get 
resources and assets from other departmental components that we 
might not have had access to immediately otherwise. And so 
there is a tremendous synergy that can be built there, other 
issues aside.
    So there is an ongoing effort, and you will notice in 
Hurricanes Gustav, Ike, and Hanna, the floods in the Midwest, 
that Secretary Chertoff was very supportive, was engaged, but 
the Administrator of FEMA was running those disasters.
    Senator Pryor. I must say, I am pleased with this 
Administrator of FEMA.
    Mr. Gispert, let me follow up on something that I asked Mr. 
Bourne early on in his questioning and that is on the National 
Response Framework. This is the document I mentioned before 
that the annexes that have the State, local, and private sector 
information is not complete and the catastrophic annex is not 
complete, either. Are you familiar with that document and----
    Mr. Gispert. I am familiar with the National Response 
Framework, yes, sir.
    Senator Pryor. And has it been helpful for you, or does 
it----
    Mr. Gispert. To be honest with you, no.
    Senator Pryor. OK. And why not?
    Mr. Gispert. Because we looked upon the NRF as the way the 
Federal people work with each other.
    Senator Pryor. OK.
    Mr. Gispert. We have had a long, comprehensive Community 
Planning Guide 101 which we have used as our method of planning 
and interacting, and so we looked at the NRF as the Federal way 
of getting their act together--who is going to provide what. So 
we didn't look at it very critically from a local level and we 
have not started those local and State annexes yet, that I am 
aware of.
    Senator Pryor. Right.
    Mr. Gispert. That is a couple of the annexes that haven't 
started. So once again, the reason that we pitched a fit, 
because we thought--and this is what we were able to clarify--
we thought that the Federal Government was going to dictate to 
the State and locals a drastic change in methodology of 
emergency planning and response at the local level. They have 
since then backed off and said, ``No, you guys continue to plan 
the way you do; we just need to interact with one another.'' 
That is perfectly reasonable. At one time, we truly did think 
they were going to mandate an entire change in the way we do 
emergency planning and that would be catastrophic in itself, 
sir.
    Senator Pryor. Right. Ms. Dragani, did you have any comment 
on the National Response Framework?
    Ms. Dragani. I am very familiar with the framework. Until 
there is more meat on the framework via the annexes, I think 
that it is very theoretical and squishy in nature. That was 
probably the value in the Federal Response Plan. It was very 
specific. We knew at the State and local level what kind of 
Federal resources were coming from what agencies and that is 
the kind of detail that I think has yet to be finalized in the 
National Response Framework through those annexes.
    Senator Pryor. All right. Ms. Dragani, you mentioned in 
your opening statement that all hazards is the way to go and 
that you have to find the balance between the natural disasters 
and the manmade disasters or the terrorism-type disasters. In 
your view, have we as a Nation, starting with FEMA, and at the 
local level, too, State and local level, have we found that 
balance?
    Ms. Dragani. No. I think that we are closer to that 
balance. Hurricane Katrina forced the Nation to recognize that 
Mother Nature can be the worst terrorist of all, so the 
pendulum has begun swinging back. I still see, as I review 
guidance for grants, as I review guidance for plans, an 
overwhelming focus on terrorism versus natural disasters, and I 
think that by separating terrorism out as a single specific 
event, it is not an all-hazards focus. An all-hazards focus 
recognizes that terrorism, hurricanes, pandemic, satellites 
falling from the sky, massive power outages are all threats 
that we may face and we need to base those threats on our 
situation, our jurisdiction, our geology, and our risk.
    Senator Pryor. Mr. Gispert, do you have any comments on 
have we found the balance yet?
    Mr. Gispert. No, sir. Originally, DHS did not even know the 
word ``all-hazards.'' In the last year-and-a-half, they at 
least are speaking the word all-hazards. I have not seen a real 
substantial swing to the all-hazards. All-hazards is very 
simple. Eighty-five percent of the time, a cop is a cop, a 
fireman is a fireman, a public works is a public works. You 
don't need to keep changing what they do. They do the same 
thing regardless of the incident.
    Now, terrorism does have some specific unique things, like 
hazardous gas and those kind of things. But basically speaking, 
85 percent of the response to a terrorism event is the same as 
the response to a tornado, or to a hurricane, and that is what 
we kept telling them. Eighty-five percent of it is the same. 
Why are you swinging over and worrying about the little 15 
percent of the 100 percent of the time?
    They now at least understand that we are not going to give 
up on all-hazards at the local and State level, so if they 
don't want to use it at the Federal level, they are going to at 
least understand what we are talking about, because I can 
never, ever go back and tell the 1.2 million people in 
Hillsborough County, Florida, that I am most worried about a 
terrorism event when every summer we have a good chance that 
Mother Nature will visit us with a catastrophic hurricane. My 
citizens want to know, why aren't you planning for the 
hurricane, because that is going to happen. Terrorism may or 
may not, but hurricanes are. So we need to take that into 
consideration.
    Every one of our communities throughout the country has 
their own specific problems that occur to them. They need to 
focus on them. Now, once they are comfortable with that, maybe 
they can think of other things. But until that time, you need 
to focus in on what your hazards are--you do a vulnerability 
assessment of your community, you rack and stack your hazards, 
and you start at the top and you work down.
    Senator Pryor. I want to thank all of you for being here 
today. I know some of my colleagues may have some questions, so 
we will leave the record open for 7 days or so. It is possible 
that the Subcommittee staff will follow up and try to get some 
answers to written questions because some of my colleagues may 
have those.
    But I really do want to thank you for being here and most 
especially thank you for doing what you do because it is very 
important for the homeland security of this country that we 
have folks like you out there doing everything that you do.
    So thanks again, and this hearing is adjourned. Thank you.
    [Whereupon, at 4:06 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
